HHS/OIG, Audit - "Review of Pension Segmentation Requirements at The
Regence Group, a Terminated Medicare Contractor, for the Period of January 1,
1997, to January 1, 2006," (A-07-07-00242)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Segmentation
Requirements at The Regence Group, a Terminated Medicare Contractor, for the
Period of January 1, 1997, to January 1, 2006," (A-07-07-00242)
May 6, 2008
Complete Text of Report is available in PDF format (1.36 mb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The Regence Group (Regence), a Centers for Medicare and
Medicaid Services (CMS) contractor, did not comply
with the Medicare contracts pension segmentation requirements while updating
the Medicare segments assets from January 1, 1997, to January 1, 2006.  As a
result, Regence overstated the Oregon Medicare segment assets by $1.75 million
and understated the Utah Medicare segment assets by $28,000.  Regence
administered both Medicare Part A and Part B operations under cost reimbursement
contracts with CMS until the contractual relationship was terminated November
30, 2005.
In addition, the Cost Accounting Standards require a
segment closing adjustment to recognize Medicares share of the excess pension
liabilities as a result of the termination of a Medicare contract.  Regence did
not calculate Medicares share of the excess pension liabilities.  We calculated
Medicares share of the excess pension to be $1.74 million ($1.02 million for
Oregon and $722,000 for Utah).
We recommended that Regence (1) decrease the Oregon
Medicare segment pension assets by $1,749,136 and increase the Utah Medicare
segment pension assets by $28,000 as of January 1, 2006, and (2) recognize $1.74
million as Medicares share of the excess pension liabilities attributable to
the segment closing calculation.  Regence concurred with our audit results but
took exception to the value of the participant liabilities used in the
calculation of the segment closing.  Regence also stated that the Oregon
Medicare Data Center was not included in the segment closing and that it would
submit a separate claim to CMS for those costs.  After reviewing Regences
comments, we continue to support our findings and recommendations.